<html>
<title> - SMALL MANUFACTURING AND THE CHALLENGES OF THE NEW MILLENNIUM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      SMALL MANUFACTURING AND THE CHALLENGES OF THE NEW MILLENNIUM

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 1999

                               __________

                           Serial No. 106-43

                               __________

            Printed for the use of the Committee on Science





                     U.S. GOVERNMENT PRINTING OFFICE
60-971                       WASHINGTON : 1999



                          COMMITTEE ON SCIENCE

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
SHERWOOD L. BOEHLERT, New York       RALPH M. HALL, Texas, RMM
LAMAR SMITH, Texas                   BART GORDON, Tennessee
CONSTANCE A. MORELLA, Maryland       JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
JOE BARTON, Texas                    LYNN C. WOOLSEY, California
KEN CALVERT, California              LYNN N. RIVERS, Michigan
NICK SMITH, Michigan                 ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         MICHAEL F. DOYLE, Pennsylvania
VERNON J. EHLERS, Michigan           SHEILA JACKSON LEE, Texas
DAVE WELDON, Florida                 DEBBIE STABENOW, Michigan
GIL GUTKNECHT, Minnesota             BOB ETHERIDGE, North Carolina
THOMAS W. EWING, Illinois            NICK LAMPSON, Texas
CHRIS CANNON, Utah                   JOHN B. LARSON, Connecticut
KEVIN BRADY, Texas                   MARK UDALL, Colorado
MERRILL COOK, Utah                   DAVID WU, Oregon
GEORGE R. NETHERCUTT, Jr.,           ANTHONY D. WEINER, New York
    Washington                       MICHAEL E. CAPUANO, Massachusetts
FRANK D. LUCAS, Oklahoma             BRIAN BAIRD, Washington
MARK GREEN, Wisconsin                JOSEPH M. HOEFFEL, Pennsylvania
STEVEN T. KUYKENDALL, California     DENNIS MOORE, Kansas
GARY G. MILLER, California           Vacancy
JUDY BIGGERT, Illinois
MARSHALL ``MARK'' SANFORD, South 
    Carolina
JACK METCALF, Washington



                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 23, 1999

                                                                   Page
Opening Statement by Representative Constance A. Morella, 
  Chairwoman, Subcommittee on Technology, U.S. House of 
  Representatives................................................     1
Opening Statement by Representative James A. Barcia, Ranking 
  Member, Subcommittee on Technology, U.S. House of 
  Representatives................................................     5
Opening Statement by Representative Debbie Stabenow, Member, 
  Subcommittee on Technology, U.S. House of Representatives......     6

                               WITNESSES

The Honorable Raymond G. Kammer, Director, National Institute of 
  Standards and Technology:
    Oral testimony...............................................     9
    Prepared testimony...........................................    12
    Biography....................................................    24
Mr. Jerry Jasinowski, President, National Association of 
  Manufacturers:
    Oral testimony...............................................    25
    Prepared testimony...........................................    27
    Biography....................................................    34
    Financial disclosure.........................................    36
Mr. John Churchill, Quality Assurance Director, Wilcoxon 
  Research:
    Oral testimony...............................................    37
    Prepared testimony...........................................    39
    Biography....................................................    44
    Financial disclosure.........................................    45
Mr. Norm Braddock, President, Saginaw Remanufacturing:
    Oral testimony...............................................    46
    Prepared testimony...........................................    48
    Biography....................................................    54
    Financial disclosure.........................................    56



      SMALL MANUFACTURING AND THE CHALLENGES OF THE NEW MILLENNIUM

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 1999

                  House of Representatives,
                              Committee on Science,
                                Subcommittee on Technology,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:00 p.m. in 
room 2318, Rayburn House Office Building, Hon. Constance 
Morella [chairwoman of the Subcommittee] presiding.
    Chairwoman Morella. I'm going to call our Subcommittee, the 
Technology Subcommittee of the Science Committee, to order. As 
we begin, I want to thank you for coming to our hearing on 
small manufacturing and the challenges of the new millennium.
    If I had to guess, most Americans probably don't stop to 
think about the daily impact that small manufacturing has on 
our lives. And yet it's all but impossible to get through a day 
without using products created by small manufacturers. All we 
need to do is look around our hearing room today to realize 
just how much we depend on the work of small manufacturers. 
Everything from the clothes we wear to the chairs we sit on to 
the computer equipment that we use to broadcast this hearing 
live on the Internet can be attributed in part to the products 
of small manufacturers.
    Small manufacturers make up over 95 percent of all United 
States manufacturers, employ one out of every ten American 
workers. It's not surprising, then, that small manufacturers 
contribute so greatly to our Nation's economic growth and 
prosperity.
    In recognition of this vital sector of our economy, 1999 
has been declared the year of the small manufacturer. From 
Pennsylvania and Maine to Nebraska and Tennessee, small 
manufacturers have gathered across the country in state-wide 
celebrations. And yesterday, we welcomed hundreds of small 
manufacturers to the National Manufacturing Summit held here in 
Washington. This is the defining event of this year-long 
celebration.
    The National Summit was orchestrated to bring together 
leaders from industry, government and academia in order to 
explore the challenges and opportunities facing America's small 
manufacturers in the next decade and to develop action that 
will enable a vital sector of our economy to prosper well into 
the 21st century.
    Four of the major challenges addressed by participants of 
the National Summit included electronic commerce, international 
trade, work force development and sustainable manufacturing. 
We're convening this hearing today in conjunction with the 
National Summit. This hearing seeks to review the findings of 
the Summit and discuss the appropriate role of the Federal 
Government in helping small manufacturers excel in the four 
areas I just mentioned and to be able to remain competitive in 
the years to come.
    One Federal program that's assisted small manufacturers is 
the National Institute of Standards and Technology's 
Manufacturing Extension Partnership, or MEP. MEP, through a 
national network of locally operated centers, provides small 
manufacturers with cost-effective access to a variety of 
services, ranging from financial planning and product 
development to quality management and human resource direction.
    Last May, I introduced H.R. 1744, the National Institute of 
Standards and Technology Act of 1999, which authorizes the NIST 
MEP program at $106.8 million for fiscal years 2000 and 2001. 
This amount is about $7 million above the Administration's 
fiscal year 2000 request for MEP.
    The MEP program does have a significant amount of support 
among members of the Science Committee, and indeed, my 
colleague, the Ranking Member, is a strong supporter, as is Ms. 
Stabenow.
    Today we would like to examine MEP's effectiveness in 
helping small manufacturers remain competitive. And we also 
want to explore ways that MEP can be improved so that it would 
reach more small manufacturers without significantly expanding 
the current number of MEP centers.
    [The statement of Mrs. Morella follows:]
    [GRAPHIC] [TIFF OMITTED] T0971A.001
    
    [GRAPHIC] [TIFF OMITTED] T0971A.002
    
    Chairwoman Morella. We have a distinguished panel of 
witnesses with us today to share their thoughts on the future 
of small manufacturing, and I thank them very much for being 
here. I look forward to their testimony, and I want to 
recognize the very distinguished, hard-working Ranking Member 
of the Subcommittee for his opening statement, Mr. Barcia.
    Mr. Barcia. Thank you very much, Chairwoman Morella. And I 
want to join you in welcoming our distinguished panel to this 
afternoon's hearing. I especially want to thank our two small 
business panelists for taking time away from their companies to 
travel to Washington, D.C. to help advise this Subcommittee 
about the Manufacturing Extension Partnership and the 
challenges facing small manufacturers today.
    When the Manufacturing Extension Partnership was first 
established, small manufacturers were struggling to compete 
against offshore manufacturers. The MEP was conceived as a 
public-private partnership to assist our small businesses in 
meeting global competitive challenges, and it has been very 
successful. The Michigan Manufacturing Technology Center in my 
home state of Michigan has assisted hundreds of small and 
medium size manufacturers throughout the State of Michigan by 
providing training and assistance in a broad array of areas, 
such as quality assurance, lean manufacturing techniques, 
performance benchmarking and environmental management.
    In Michigan, where many small and medium sizemanufacturers 
are a part of the auto industry supply chain, these second and third 
tier suppliers must be competitive with companies around the world. By 
working with the Michigan Manufacturing Technology Center, they are. 
Now the challenges facing small manufacturers are changing. They still 
have to compete in a global marketplace, but they also face new 
challenges. Small business must become Internet literate, because more 
and more business transactions are occurring over the Internet.
    If small manufacturers want to remain competitive, and be a 
part of the supply chain, they must adopt these new ways of 
doing business. Along with adopting new technologies, small 
businesses need a technically literate work force. Whether 
hiring new employees or providing professional development, 
small manufacturers must ensure that their employees have the 
skills to integrate these new technologies into the workplace.
    Finally, small manufacturers not only need to be 
competitive with imports in the United States, they need to be 
aggressive as exporters. These are just a few of the new 
challenges facing our small and mid-sized manufacturers. I want 
to commend the Modernization Forum, the National Association of 
Manufacturers, and the Manufacturing Extension Partnership for 
organizing the National Manufacturing Summit for small and 
medium manufacturers. This Summit was the first step in 
formulating a policy to address the challenges facing our small 
manufacturers.
    Again, I want to thank our distinguished panel for 
appearing before the Subcommittee, thank our Chair, our 
distinguished Chair, Chairwoman Morella, for this timely 
hearing and the opportunity for these panel guests to share 
their insight and their expertise with us as we hope to chart 
the future of our efforts here in the Congress at assisting 
small and medium size manufacturing businesses.
    With that, I look forward to listening to all of your 
comments. Thank you, Madam Chair.
    Chairwoman Morella. That you, Mr. Barcia. When I introduce 
the panelists, I will let you introduce your constituent from 
Saginaw.
    I'm pleased to recognize Ms. Stabenow from Michigan.
    Ms. Stabenow. Thank you, Madam Chair. I join with both of 
you in welcoming our speakers today and particularly Norm 
Braddock from the great State of Michigan. I'll join Mr. Barcia 
in welcoming him. I know first-hand that he has tremendous 
experience in economic development and working with small 
manufacturers in Michigan, also working with the auto industry 
and with the MEP program. So we're extremely pleased to have 
you here with us as well as the other panelists.
    I'm interested in the same kinds of issues that have been 
talked about by our Chairwoman and Ranking Member, extremely 
interested, in addition to the issue of technology in the 
classroom. Yesterday we had a hearing addressing issues of 
barriers to bringing technology to the classroom. I know that 
work force development, education, are critical to small and 
large manufacturers and certainly welcome your thoughts in that 
area as well as other issues related to technology, e-commerce, 
what we're doing in terms of support and technology for our 
small manufacturers.
    I am, as has been indicated, a strong supporter of the MEP 
program. I do want to also indicate I am a strong supporter of 
the Advanced Technology Program. And while I'm pleased with the 
additional dollars we have been able to put into the MEP 
program, I am very concerned about what has been happening to 
ATP and am very concerned that at the moment we do not have 
dollars in for new awards, and would certainly welcome your 
thoughts about the importance of partnering around technology 
research issues.
    And I know in Michigan, this has been extremely helpful. 
ATP has really made a difference in jobs and economic 
development. And I'm hopeful that as we move along, we're going 
to be able to address that, because I'm concerned that MEP is 
doing well, ATP is doing well in my state, but ATP at this 
point in time is not receiving the kind of support from 
Congress that it needs. And so I'm hopeful that we can correct 
that.
    So I thank you very much, and I appreciate being a part of 
the hearing.
[GRAPHIC] [TIFF OMITTED] T0971A.003

    Chairwoman Morella. Thank you, Ms. Stabenow.
    I'm sure she mentioned that because she saw Mr. Kammer, 
Director Kammer here, of the National Institute of Standards 
and Technology. We do have a distinguished panel.
    Mr. Kammer, who's certainly no stranger to this 
Subcommittee, is going to share with us his efforts to assist 
small manufacturers.
    We're also joined by Mr. Jerry Jasinowski, President of the 
National Association of Manufacturers, also no stranger to 
Congress. He'll give us an overview of the recommendations that 
came out of yesterday's National Manufacturing Summit. I'm also 
pleased to point out that Mr. Jasinowski was recently selected 
by the Washingtonian Magazine as one of the ten most 
influential association heads in Washington. I would like to 
congratulate him.
    I forgot to bring my copy so you could autograph it, Mr. 
Jasinowski. [Laughter.]
    In addition, we have Mr. John Churchill, Quality Assurance 
Director at Wilcoxon Research, a small manufacturing company 
located in Gaithersburg, Maryland, the great Gaithersburg, 
Maryland. Happens to be inmy Congressional district, and I'm 
proud of the work they've done.
    I'm eager to hear his thoughts about the challenges that 
face small manufacturers and how we can help companies continue 
to prosper.
    I leave the introduction of Mr. Norm Braddock to Mr. 
Barcia.
    Mr. Barcia. Thank you very much, Chairwoman Morella.
    I am very privileged and pleased to introduce a good friend 
and a very successful businessman, Mr. Norman Braddock. And I 
know that Representative Stabenow and I share our pride in a 
Michigan native appearing before our Subcommittee, especially 
one who has been so successful in every aspect of his life. 
He's an outstanding father and husband and very, very involved 
civically in Saginaw County and Michigan state-wide 
organizations, as well as his extensive experience that he 
brings to us today in the manufacturing sector.
    Norm is a lifelong resident of Saginaw, Michigan, and spent 
more than 20 years working at Saginaw Steering Gear, a division 
of General Motors, which is now known as our Delphi plant up in 
Saginaw County. He held various managerial positions at Delphi, 
including manufacturing supervisor, workers compensation 
adjuster, benefit plan supervisor, labor relations supervisor, 
senior buyer and general supervisor of purchasing.
    After a very successful career with General Motors, Norm 
started the Saginaw Remanufacturing Company as a joint venture 
to rebuild power steering pumps. His successful business soon 
diversified production to include inspection and sub-assembly 
of various other original automotive parts.
    Norm, as I mentioned, is an active member of the Saginaw 
business community, serving as the director of numerous 
professional organizations, and I'll just mention just a few, 
but we could spend a great deal of time if we included all of 
the organizations he's active and involved in. Including the 
Saginaw African-American and Minority Business Association and 
the Saginaw Valley Manufacturers Association, he also currently 
serves, and has been a very active member of the Saginaw County 
Chamber of Commerce, where he currently serves as the 
secretary.
    And I think Norm offers us a unique perspective. He has 
spent 20 years, as I mentioned, working for General Motors, and 
is now the president of his own successful manufacturing 
company. He understands both the demands of major corporations, 
and the challenges that small and medium size manufacturers 
face.
    I look forward to listening to his unique perspective on 
the Manufacturing Extension Partnership, and the needs of small 
businesses, and how effective that program has been in the 
past, and what we might be able to do in the future to ensure 
its continued valued assistance to our small and medium size 
manufacturing base in the United States.
    So Norm, I'm very pleased to introduce you to our 
Subcommittee.
    Chairwoman Morella. Thank you, Mr. Barcia.
    It is the policy of the Science Committee and all its 
Subcommittees to swear in the witnesses. So if you would stand 
and raise your right hand.
    [Witnesses stand.]
    Chairwoman Morella. Do you swear that the testimony you are 
about to give is the truth, the whole truth and nothing but the 
truth?
    [Witnesses respond in the affirmative.]
    The record will indicate affirmative responses.
    Our pattern is to allow each panelist to speak about five 
minutes. It could be a little bit over if necessary. Your 
written testimony in its entirety is included in the record, so 
you can alter it, synopsize it, whatever you want to do.
    Director Kammer, let's start off with you, sir.

TESTIMONY OF RAYMOND G. KAMMER, DIRECTOR, NATIONAL INSTITUTE OF 
   STANDARDS AND TECHNOLOGY, TECHNOLOGY ADMINISTRATION, U.S. 
         DEPARTMENT OF COMMERCE, GAITHERSBURG, MARYLAND

    Mr. Kammer. Chairwoman Morella, Representative Barcia, 
Representative Stabenow, thank you very much for inviting me 
here to share some of what NIST does to improve the 
competitiveness of America's small manufacturers.
    Manufacturing is critical to the U.S. economy. Overall, it 
provides nearly 20 percent of the Nation's GDP and about 17 
percent of all jobs, and about 24 percent of all wages. As you 
know, Secretary of Commerce Daley declared this year to be the 
year of the small manufacturer. That was endorsed by the 
National Governors Association in their February meeting. And 
most recently, President Clinton declared this week to be Small 
Manufacturing Week, so this hearing's timing is very, very 
appropriate.
    I'll defer to the other members of the panel in summarizing 
the first national manufacturing summit. I will say, though, 
from my point of view, it was extraordinarily successful. And I 
would also like to publicly thank Jerry Jasinowski and NAM and 
Judy Justinas and the Modernization Forum for their leadership 
in making this a successful summit.
    I'm going to focus on two of NIST's programs, primarily on 
MEP and then share a little bit of information with you about 
the quality program in small manufacturing, simply because I 
thought that that would be of interest, and I don't think the 
Committee's heard all this information. Our closest NIST 
relationship, of course, with small manufacturers, is MEP. MEP 
provides hands-on information to the Nation's 385,000 small 
manufacturers. And over the last two decades, these small firms 
have generated about \3/4\ of all new manufacturing jobs and 
account for about 55 percent of the value-added money in 
manufacturing.
    Yet many small manufacturers find it difficult to stay 
current with modern technology, and in comparison with larger 
manufacturing firms, their productivity is growing somewhat 
more slowly. But the MEP can help. And Phil Shapiro, who is the 
professor in the School of Public Policy at the Georgia 
Institute of Technology, recently said that systematic 
evaluation studies have confirmed that MEP is having a positive 
effect on business and the economy. And I'm going to give you 
the results of a few of those studies.
    The U.S. Census Bureau surveyed about 4,400 firms that had 
been served by the NIST MEP in 1997. That represents about 5 
percent of all the firms we've served since the beginning of 
the program. These companies reported an increase in sales of 
$236 million, reduction in inventory of $31 million, a savings 
of $24 million in labor and materials.And they also reported 
they'd invested $193 million in modernization and created about 6,700 
new jobs.
    A second study that was done by MEP that matched firms we 
had served in Pennsylvania with firms that we had not served 
that were similar in their endeavor covered about 2 percent of 
everybody that we've served, and that showed that on a per 
capita employee basis, the MEP client firms created value at a 
rate of about $2,300 a year for each employee, in comparison to 
about $500 a year for the firms that we had not served.
    And then a final example, a study of the New York MEP found 
that the State's investment of about $5 million generated an 
additional $225 million or so of value-added income in New York 
between 1995 and 1997. And it created 2,600 new jobs.
    I can't resist sharing one example with you. I met a man 
yesterday at the Summit who is the president of the Best 
Cheesecake in the World Company. They're in Chantilly, 
Virginia, and I sampled the product, it's quite good. The firm 
is about a $2 million a year firm. They have 19 employees.
    Last year, they consulted with the Virginia MEP. And based 
on that consultation and suggestions for improving their 
production processes, the firm was able to add $91,000 in 
profitability. On a $2 million base, that's actually an 
extraordinary, that's a 5 percent return on investment in one 
year's consultation.
    And he's very pleased with it, and was very proud of the 
company and very proud of his relationship with the Virginia 
MEP.
    Let me just say a few words about the quality program and 
with that, I'll close. But of the 34 companies that have won 
the Baldridge Award, 24 are manufacturers. Some of these are 
the largest companies in the world, but some of them are nearly 
the smallest companies in the world, for instance, Texas 
Nameplate, Trident Precision Manufacturing and Wainwright 
Industries.
    Since 1995, Texas Nameplate, who won last year, has 
increased the number of orders shipped by 16 percent and raised 
its on-time delivery record from 95 to 98 percent. Wainwright 
Industries, which was a 1994 small business winner, has reduced 
its customer reject rate by 91 percent, cycle time is better by 
90 percent, and it's used the Baldridge framework to drive 
10,000 quality and process improvement suggestions that they 
have implemented since 1994.
    One of our winners in the first year is Globe 
Metallurgical. So that's ten years ago. And in the ten years 
since they won the award, they've increased revenues by about 
200 percent, and they've increased profitability by 300 
percent. And that's a very hard thing to do, to increase your 
profitability while you increase revenues.
    So as I said at the beginning of my remarks, manufacturing 
is important to NIST. For almost 100 years, we've viewed it as 
our job to help the Nation's manufacturers. I'm proud of what 
we've accomplished, and I'm excited about beginning the next 
century of service to American industry.
    In closing, let me thank the Committee for sponsoring us in 
a display that is in the Rayburn foyer that shows the products 
of some of the small manufacturers that we work with. I invite 
people to come and take a look if they get a chance.
    Thank you for inviting me.
    [The statement of Mr. Kammer follows:]
    [GRAPHIC] [TIFF OMITTED] T0971A.004
    
    [GRAPHIC] [TIFF OMITTED] T0971A.005
    
    [GRAPHIC] [TIFF OMITTED] T0971A.006
    
    [GRAPHIC] [TIFF OMITTED] T0971A.007
    
    [GRAPHIC] [TIFF OMITTED] T0971A.008
    
    [GRAPHIC] [TIFF OMITTED] T0971A.009
    
    [GRAPHIC] [TIFF OMITTED] T0971A.010
    
    [GRAPHIC] [TIFF OMITTED] T0971A.011
    
    [GRAPHIC] [TIFF OMITTED] T0971A.012
    
    [GRAPHIC] [TIFF OMITTED] T0971A.013
    
    [GRAPHIC] [TIFF OMITTED] T0971A.014
    
    [GRAPHIC] [TIFF OMITTED] T0971A.015
    
    [GRAPHIC] [TIFF OMITTED] T0971A.016
    
    Chairwoman Morella. Thank you, Director Kammer. I hope they 
will drop by and look them over. We'll publicize that.
    Mr. Jasinowski, delighted to have you here and hear from 
you, sir.

TESTIMONY OF JERRY JASINOWSKI, PRESIDENT, NATIONAL ASSOCIATION 
               OF MANUFACTURERS, WASHINGTON, D.C.

    Mr. Jasinowski. Thank you very much, Madam Chairman. And 
thank you for your leadership and good humor and general grace 
in this region in a Congress that has been enhanced by your 
spirit and personality and leadership a great deal. And thank 
you, Congressman Barcia, for sponsoring this hearing as well.
    I would be remiss if at the very beginning in summarizing 
the Summit that we've just had not to indicate that there is a 
strong element of partnership that came out of this between 
NIST, the Extension program and the small manufacturers and 
business in general. I think that it's easy to underestimate 
the extent to which there are great opportunities for 
government and the private sector to cooperate on a whole host 
of things, whether or not it be the DARPA program or the 
investments we make in health or the magnificent leadership 
we've had on the quality program, and now this continued 
strength in the Extension program which is very valuable to 
small manufacturers.
    And many of the small manufacturers that I was with 
yesterday are members, we have 10,000 small manufacturers, said 
to me that they've found it very valuable to be able to develop 
those partnerships. And that cuts across the issuesof trade, 
technology and training that we're examining at the Summit. So that was 
a cross-cutting theme that came through, and I think is important for 
this Committee to have someone from the private sector emphasize.
    And I think the second, and to thank both the NIST and the 
Extension program leadership that we had on the Summit, and 
that we have generally from those two fine institutions. I 
think the second point I'd make, Madam Chairman, is that 
manufacturing has made an extraordinary comeback in this 
country and we now see productivity in manufacturing that is 
running at 4 percent, which is twice the rate of what it is in 
the country as a whole. We have about 60 percent, \2/3\ of the 
technology in this economy is either done by or created by 
manufacturing. It is much more high-tech than anyone has any 
sense of at all.
    And that is as true of small manufacturing as it is of 
large manufacturing. If there is anything that is striking, it 
is the extent to which these people we were with yesterday are 
much more technologically sophisticated than you would imagine. 
For example, in a survey we did for this event, 80 percent of 
the small manufacturers we surveyed, 80 percent, have a web 
site. Whereas if you look at the figures for American business 
as a whole, it is only 20 percent.
    And I think that's because manufacturing, by the nature of 
its process, is a rather sophisticated operation that requires 
computers and all the software and information processing 
that's a part of this. And we have been doing this now for a 
long time in order to increase our productivity and be 
competitive. And so it's a productivity, technology community, 
and that goes for the small manufacturers who contribute about 
60 percent of the value of manufacturing as a whole, and about 
65 percent of manufacturing jobs.
    So this is a high-tech group. Most of the people who are 
making extraordinary success in e-commerce and e-business are 
small companies, I might add, many of which are software and 
other kinds of manufacturing companies.
    I think, well, we learned important things in the trade and 
environmental area that I've outlined in my testimony. And I 
would say just a sentence on each, because I want to go on to 
the other two areas, which I think it's more important to 
stress. In the area of the environment, what was stressed is 
the need for greater flexibility, greater cooperation with 
respect to the private sector, and the public sector, and 
improved emphasis in the private sector on seeing environment 
as a quality enhanced program.
    It was striking how much more friendly small manufacturing 
feels about its state environmental representatives than it 
does the EPA. And I know that Administrator Browner will be 
interested in that, and she's making an effort to try to 
respond more to small manufacturers.
    But there's an important lesson there, and it indicates 
that if you have cooperation, if you have early warning and all 
of that, these regulatory initiatives at the environmental 
level can work much better.
    In the trade area, the single message that came through 
that was most important is that nobody fully understands, 
including small manufacturers, all the benefits associated with 
global trade, that you have in fact a lot more people who are 
gaining from that than is possibly recognized. I think the two 
areas that are of far greater importance which I have 
emphasized are e-commerce and the training area.
    And in the e-commerce area, we simply need to provide much 
better information to the small manufacturers, a better tool 
kit for them to get involved in, greater bandwidth access and 
an opportunity to have the infrastructure that they need. In 
terms of their payoff, focusing on the supply chain, as has 
been suggested earlier by the Committee, is the area that will 
pay off the most.
    On work force issues, it was generally agreed this is the 
number one issue facing all small manufacturers in terms of 
education and training. Eighty-three percent of all small 
manufacturers say they still have a hard time finding the 
employees they need. And there what we need is again 
partnerships with the community colleges, with the work force 
investment extension, with the extension programs in order to 
solve this program together.
    Beyond that, small manufacturers need to look at the 
training thing as part of a larger profit sharing and 
empowerment effort. If you look at the best companies, they 
succeed because they give the workers a stake in the 
enterprise, in terms of how it's run, how they share in the 
profits, and in terms of incentives, for them to be fully 
trained.
    So I think, Madam Chairman, those are the main conclusions 
from the conference as I saw them, from the perspective of the 
National Association of Manufacturers.
    [The statement of Mr. Jasinowski follows:]
    [GRAPHIC] [TIFF OMITTED] T0971A.017
    
    [GRAPHIC] [TIFF OMITTED] T0971A.018
    
    [GRAPHIC] [TIFF OMITTED] T0971A.019
    
    [GRAPHIC] [TIFF OMITTED] T0971A.020
    
    [GRAPHIC] [TIFF OMITTED] T0971A.021
    
    [GRAPHIC] [TIFF OMITTED] T0971A.022
    
    [GRAPHIC] [TIFF OMITTED] T0971A.023
    
    [GRAPHIC] [TIFF OMITTED] T0971A.024
    
    [GRAPHIC] [TIFF OMITTED] T0971A.025
    
    [GRAPHIC] [TIFF OMITTED] T0971A.026
    
    Chairwoman Morella. Nice, succinct testimony. Thank you, 
Mr. Jasinowski. We'll have a chance to ask further questions, 
ask some questions on it.
    Mr. Churchill, delighted to have you here, sir.

   TESTIMONY OF JOHN CHURCHILL, QUALITY ASSURANCE DIRECTOR, 
           WILCOXON RESEARCH, GAITHERSBURG, MARYLAND

    Mr. Churchill. Good afternoon, Chairwoman Morella and 
Representative Barcia and Members of the House Technology 
Subcommittee.
    As a representative of a small business located in 
Gaithersburg, Maryland, in Chairwoman Morella's district, I'm 
honored to appear before the House Technology Subcommittee. I'd 
like to thank Chairwoman Morella, first for inviting me to 
testify and to share some of the experiences we've had with the 
programs, and also for, to let you know we appreciate the work 
that you've done to help make an environment favorable to small 
businesses in our district, as we compete in the international 
marketplace.
    I'm Director of Quality Assurance at Wilcoxon Research, 
Incorporated. It's a small company that designs and 
manufactures vibration sensors and associated equipment, it's 
sort of a very specialized part of the market. A little bit 
about the company, just to give you some background, Wilcoxon 
Research was formed in 1960. It remained a very small company 
until around the 1980s, at which point we started to grow quite 
rapidly.
    We employ currently around 110 people and sell about $9 
million worth of product to laboratories, to the U.S. 
Government, to other equipment manufacturers, original 
equipment manufacturers, and also to end users. The sensors 
that we manufacture are primarily installed to monitor bearings 
on rotating shaft type of equipment, such as helicopter rotors, 
power generation equipment, cooling fans and paper mills. These 
instruments allow customers to reduce their costs and become 
more competitive through predictive maintenance, lets them 
monitor their equipment and optimize it, and prevent unexpected 
shutdowns, that sort of thing.
    We've used the Technology Extension Service now, which is a 
manufacturing extension partnership program administered 
through the University of Maryland, on several occasions. I'd 
like to briefly talk about two of the occasions. In my written 
testimony I have several more, and more details there.
    The program, though, first it has provided us access to 
technical information, experts in specialized equipment, to 
help us solve problems that, in a timely manner, that would be 
very difficult for us to solve otherwise on our own, with 
limited resources that a small business has. In 1992 and 1993 
time period, we were experiencing a number of failures out in 
the field in a certain application of the product that we 
supply. They were associated with paper mill applications that 
had a very high temperature and high humidity and caustic 
chemicals presence. Something there was causing our sensors to 
fail.
    We got in touch with the Technology Extension Service after 
attempting to solve the problems with the sensors on our own. 
They gave us access to a scanning electron microscope, also 
provided us access to conformal coding experts and gave us 
information on processes and materials associated with that. 
They were able to help us review our vacuum and nitrogen purge 
systems, which were part of the processing that we used, help 
us to interpret some residual gas analysis testing that we had 
had performed at a commercial service, but we had difficulty 
interpreting the results of that.
    And they also finally gave us access to a highly 
accelerated stress test chamber, which allowed us to prove out 
some of the potential solutions before we actually worked them 
into our product. So with their help there, and that was help 
that we would find very difficult and costly to find on our 
own. We were able to correct several sources of the problems 
that we had and remain competitive in that market. Basically at 
that time, that market represented about 50 percent of our 
sales, so it was an extremely important market to us. And 
having quick, immediate access to that information was very 
valuable.
    Another occasion, they helped us improve the yield and 
reliability of some of our smaller electronic circuits. Many of 
the markets that we serve desire small, lightweight units as is 
the general trend in all technical instrumentation. One method 
of achieving that is through wire bonding technology. That's a 
method of assembling electronic circuit in a much smaller 
package.
    We had purchased some wire bonding equipment and had 
attempted and fairly successfully got it up and running and 
written the processes involved with it. But yet, we were still 
experiencing a fairly high failure rate internally. And we had 
some, we weren't quite sure of the reliability of the product 
that we had going out the door.
    The Technology Extension Service was able to provide us 
with a wire bonding expert from the Naval Research Laboratory 
who helped us optimize our processes, including in the areas of 
test handling and storage burn-in, cleaning and coding. And 
they greatly assisted us in getting that process up and running 
now.
    And as I mentioned, we had several other examples of the 
way we've made use of these services. And I'd be happy to 
answer any questions that you have. Thank you.
    [The statement of Mr. Churchill follows:]
    [GRAPHIC] [TIFF OMITTED] T0971A.027
    
    [GRAPHIC] [TIFF OMITTED] T0971A.028
    
    [GRAPHIC] [TIFF OMITTED] T0971A.029
    
    [GRAPHIC] [TIFF OMITTED] T0971A.030
    
    [GRAPHIC] [TIFF OMITTED] T0971A.031
    
    [GRAPHIC] [TIFF OMITTED] T0971A.032
    
    [GRAPHIC] [TIFF OMITTED] T0971A.033
    
    Chairwoman Morella. Thank you, Mr. Churchill.
    Mr. Braddock, pleasure to have you with us.

       TESTIMONY OF NORMAN BRADDOCK, PRESIDENT, SAGINAW 
               REMANUFACTURING, SAGINAW, MICHIGAN

    Mr. Braddock. Thank you. Good morning, Congresswoman 
Morella and Members of the Subcommittee.
    My name is Norman Braddock and I am President of the 
Saginaw Remanufacturing Company in Saginaw, Michigan. I'm 
honored to have this opportunity to testify before you today. 
And I'm especially pleased to testify before my local 
Congressman and friend, Jim Barcia, and also before Ms. 
Stabenow, Congresswoman Stabenow, who will become the next U.S. 
Senator from the great State of Michigan. [Laughter.]
    I traveled here to Washington, D.C., to participate in the 
1999 Manufacturing Summit. And I thoroughly enjoyed the 
opportunity to discuss the challenges I face with other small 
manufacturers, agencies, elected officials and staff. Today I 
would like to discuss my experience in how the Manufacturing 
Extension Partnership, or MEP, has helped me address some of 
these challenges.
    After 20 years in General Motors in their manufacturing, 
personnel and purchasing departments, I established the Saginaw 
Remanufacturing Company in 1991 as a remanufacturer of 
hydraulic power steering pumps for General Motors service parts 
operations, and Daimler Chrysler's Mopar Parts Division. Our 
product is used in the after-market and is sold to car dealers 
around the world for service and warranty work. We also provide 
assembly, sub-assembly, inspection, testing, rework and 
recycling services to Delphi Automotive Systems in Saginaw for 
their OEM business.
    Today Saginaw Remanufacturing employs 63 people and our 
sales are expected to exceed $3 million this year. During my 
first several years in business, I found it difficult to 
accurately predict the cost of production, and would often 
build a cushion into my quotes for particular jobs to ensure 
that I covered all of my expenses. When I received a flyer from 
Saginaw Valley State University's Center for Manufacturing 
Improvement for an activity-based costing seminar, I thought it 
was something that I had better check out.
    CMI is the regional office for the Michigan Manufacturing 
Technology Center, Michigan's MEP center. Activity-based 
costing, the activity-based costing seminar, sparked my 
interest to learn more about accurately calculating costs for 
each of my product lines. And I wanted to contact the MMTC for 
more information.
    As a result, I contracted with them for $7,500 and came 
away with an invaluable insight into the financial breakdown of 
my business operations. By better understanding how each part 
of my production process contributes to the overall cost of 
products, I was better able to predict the cost of new products 
and provide more accurate quotes to potential customers. I 
could also identify which jobs were the most profitable and 
concentrate my efforts on those particular jobs.
    I also received assistance with a strategic business plan. 
I needed that for QS9000 registration. And also, I received 
market analysis information from the MMTC. I feel that my 
company is a real success story and that the MMTC has been a 
strong partner in achieving that success. They provided me with 
expertise that I could not find anywhere else. They are 
impartial, knowledgeable and they are an ally in today's fierce 
marketplace. They continue to call with referrals and advice, 
and have even given me input on contacting other potential 
customers.
    I also want to differentiate MEP services from those from 
their private sector counterparts. Most large private sector 
consultants do not actively solicit my business, and when they 
do, very junior level people have been assigned to perform the 
work. In addition, the services often were not tailored to fit 
my particular needs.
    The MMTC, on the other hand, aggressively marketed to me 
and continues to provide guidance about new services and 
programs that can help me remain competitive. I feel that they 
are very business savvy and very business conscious, and are 
truly in my corner.
    I have two other challenges I want to briefly mention to 
you. As many of you know, the big three auto makers are moving 
from assembling parts to assembling modules of parts, and 
pushing more and more assembly, engineering and design work to 
lower tier suppliers. This puts great pressure on small 
manufacturers like myself to more effectively communicate with 
my customers and my supplier chain.
    In addition, there are more demands to comply with various 
quality standards and to have more in-house engineering and 
design expertise. I sincerely appreciate the opportunity to 
participate in this 1999 National Manufacturing Summit. And 
while I'm keenly aware of the many challenges small 
manufacturers like me face, the Summit gave me a chance to 
interact with hundreds of others who are struggling with these 
same problems, and have helped us to understand how we might 
tackle them.
    The breakout sessions were right on target. The e-commerce 
and work force forums addressed some of the specific challenges 
I just mentioned. I attended the international trade session, 
and I strongly believe that the future competitiveness will 
heavily rely on our ability and my ability to conduct business 
globally and on-line, and obtain accurate, timely information 
about my customers and suppliers.
    It is extremely difficult for small manufacturers like me 
to wade through the hype about the internet and determine 
exactly what I need to implement and identify the resources to 
do it. I look forward to working with the MMTC, and continue to 
address these new set of challenges.
    Once again, I want to thank you for this opportunity to 
speak to you today and particularly before my local 
Congressman, Mr. Jim Barcia. Thank you.
    [The statement of Mr. Braddock follows:]
    [GRAPHIC] [TIFF OMITTED] T0971A.034
    
    [GRAPHIC] [TIFF OMITTED] T0971A.035
    
    [GRAPHIC] [TIFF OMITTED] T0971A.036
    
    [GRAPHIC] [TIFF OMITTED] T0971A.037
    
    [GRAPHIC] [TIFF OMITTED] T0971A.038
    
    [GRAPHIC] [TIFF OMITTED] T0971A.039
    
    [GRAPHIC] [TIFF OMITTED] T0971A.040
    
    [GRAPHIC] [TIFF OMITTED] T0971A.041
    
    [GRAPHIC] [TIFF OMITTED] T0971A.042
    
    Chairwoman Morella. Thank you very much, Mr. Braddock. 
Thank all of you for your testimony.
    We'll start our round of questions, but, I don't know 
what's happened, Mr. Braddock, but we have also Ms. Rivers from 
Michigan. So we've been kind of overwhelmed with the 
Michiganers here. [Laughter.]
    And we also have Mr. Baird, who has joined us, too, from 
the great State of Washington.
    I'm going to start off asking you some questions about 
yesterday's real standards day as it applies to your response 
to international standards, whether they are barriers, whether 
there should be changes, the whole concept of standard setting. 
I wonder what impact, if you'd like to comment, do 
international standards have on small manufacturers. Then I 
want to go into whether or not small manufacturers have 
difficulty exporting to the European union or elsewhere because 
of technical standards. And whoever would like to start off, 
Mr. Jasinowski is in front of the microphone.
    Mr. Jasinowski. I'm happy to start off from a broad sense. 
I must say that when you have a discussion of international 
trade with both large and small manufacturers, standards comes 
up as a major barrier with respect to trade in Europe. As you 
know, the trans-Atlantic dialogue in Tab Dare focused on those 
questions at a large company level. And the effort is to try to get the 
private sector to agree on harmonization of reducing standards that are 
different in each country, whether or not they are internet standards 
or tire standards or whatever.
    So in a large, generic sense, it is a major barrier to 
trade, and I think the private sector would like to see them 
reduced. I don't know if they're particularly worse for small 
manufacturers, but my sense would be at least in some areas 
that it is.
    Chairwoman Morella. Mr. Churchill, do you want to comment 
on that?
    Mr. Churchill. Yes. We have several standards that are 
applied to our products, particularly to CE standards, with the 
low voltage directive and the EMI requirements and the ATEX 
requirements they have. They have put considerable, we've put 
considerable costs and resources into complying with those 
standards. It is a little difficult at times to find out which 
standards we need to comply with.
    Chairwoman Morella. Are small manufacturers, do you think, 
represented adequately on the international standard setting 
boards, or even national, you know?
    Mr. Churchill. Yes, I believe so, but I don't have a lot of 
experience on the representation that's there on the board.
    Chairwoman Morella. Mr. Braddock, would you like to comment 
on that, sir?
    Mr. Braddock. The international standards I'm most familiar 
with is ISO9000, International Standards Organization. And the 
auto industry action group took that a step further a few years 
ago and created QS9000, which is Quality Systems. And actually, 
they enhance the ISO9000 standards to make it a little bit more 
strict, but that's not a problem, because any standardization 
of standards, whether they be local or international, is a 
benefit to small business and even bigger businesses, because 
everyone operates out of the same playbook.
    And as long as they're fair and objective, small businesses 
don't have a problem. As a matter of fact, when QS9000 first 
came out, we agonized over all the work involved in getting 
registered. Because it requires you to document everything you 
do, and then prove that you're doing what the documentation 
says.
    And after getting into it, after a few months, I made my 
organization aware of the fact that whether the customer 
required us to do this or not, it's still the right thing for 
us to do, because it gives us, it helps us to franchise the 
business, it gives us a blueprint, and it forces us to be 
disciplined enough to do what it is we ought to be doing 
anyway, do our documentation.
    Chairwoman Morella. Does the Federal Government have any 
role to play in assisting small manufacturers on standards 
issues, or none?
    Mr. Jasinowski. Madam Chairman, I would like to say that I 
recall now that we did a survey for the Summit which asked the 
exact question you have asked. Of small manufacturers, and 50 
percent of those answered said that standards were a major 
barrier to trade. I think that since the big guys are over 
there taking care of themselves, it remains for NIST, the NAM, 
the Department of Commerce and those other agencies that 
represent small manufacturing to raise this as a major issue.
    So I would say yes, and all of us need to be very active on 
it.
    Chairwoman Morella. And I left the last word to you, Mr. 
Kammer.
    Mr. Kammer. Thank you. Standards clearly do represent 
barriers to small companies in the United States. You just have 
the information barrier, large companies have technical 
libraries of standards, small companies, you know, simply can't 
afford the overhead that this implies. One of the roles for the 
Federal Government is just to provide the information. I think 
that's a helpful thing to do.
    The International Trade Administration estimates that, in 
addition to the problem just of information gaps, that 
somewhere between 10 and 20 percent of our trade with the EU, 
that we would have 10 or 20 percent more trade with the EU if 
it weren't for the Eurocentric nature of the standards. To put 
that in perspective, this last year, we did $400 billion worth 
of trade with the EU.
    So it's a large number.
    Chairwoman Morella. My first five minutes elapsed, so I 
will recognize Mr. Barcia.
    Mr. Barcia. Thank you, Chairwoman Morella.
    Chairwoman Morella. Excuse me, we have been joined by Mr. 
Udall. I want to acknowledge him.
    Mr. Barcia. Thank you. The first question I have I'd like 
to direct to Mr. Braddock, but also any comments that any of 
the panel members would care to make. Mr. Braddock, one of the 
major challenges facing all manufacturers is developing a 
skilled work force. You serve back in Michigan on the 
Governor's Work Force Board. Could you address some of the work 
force issues facing small and medium size manufacturers and how 
do you think we could address this issue more effectively?
    In addition to training of people new to the work force, 
would you also address the issue of professional development of 
the existing work force in terms of keeping their skills 
current as technology advances and different skills are 
required in an ever-changing manufacturing environment and how 
we might address in the long term professional development for 
small and medium size work forces, and small and medium size 
manufacturing?
    Mr. Braddock. Well, speaking from a practical experience, 
there is a great demand for high skilled, high wage and high 
demand people to fill those types of positions. I've somewhat 
resolved those issues for myself personally by creating another 
company called Reman Personnel Services, a staffing agency that 
does nothing but go out and seeks people to fill positions, not 
only in my business, but also for other local businesses.
    And you're right, good people are hard to find, and even to 
retain good people, you have to treat them fairly, pay them 
competitive wages and then provide them with some career 
opportunity once they come in your door, to do other things 
beyond what they're doing for you. It's an ongoing challenge.
    But I think our best solution is to work within the school 
systems, the public and private school systems, to work with 
teachers, in order for them to educate our children to be 
prepared to go to work, not just after high school and not just 
after college, but through trade schools. Not all children are 
college material.
    So we need to identify early who those children are who 
need to go to trade school so that we can get moreelectricians, 
carpenters, pipe fitters, plumbers, people that, and we need to educate 
people about, as I learned this week, about manufacturing, and the fact 
that there are good manufacturing jobs out there in the world that need 
to be filled. I would venture to say as a parent that if I found out 
that my son couldn't be a doctor, I'd be just as happy if he could be 
an electrician working in a manufacturing facility.
    Mr. Barcia. Any other panel guests care to comment?
    Mr. Jasinowski. I would first of all say how proud I am of 
Mr. Braddock's answer, since I think he reflects the kind of 
entrepreneurship that is so characteristic of all of these 
small manufacturers. My wife and I had dinner with several of 
them the other night and she said, you know, they are so 
positive that it just takes your breath away after you've spent 
time with them.
    But turning to policy, two things. One, I think 
manufacturers can do more themselves. And I have been urging 
that manufacturers invest 3 percent of payroll in training, and 
we've created something called a virtual university which now 
allows us to provide on-line training to our companies. And it 
has been enormously popular so far. And I think on-line 
training is going to be a big answer to the problem, because 
it's much more cost effective and much more flexible.
    Second, I think we ought to take a look at tax policy and 
see if there are incentives associated with training. We have 
some in the tax law already. We at the NAM are going to be 
looking at other tax incentives.
    Mr. Barcia. If no one else has anything, I'd just like to 
follow up, I think on both Mr. Braddock's and Mr. Jasinowski's 
comments, with the second question. I think you've partially 
answered it, but if you have any specific suggestions on what 
we might do to be more responsive, I would appreciate that. 
I'll start with Mr. Braddock, but again, anyone that would like 
to comment, I would appreciate your responses.
    Mr. Braddock, e-commerce has become the latest buzz word in 
Washington policy circles. In your testimony, you mentioned 
some of the challenges your company faced in going on-line. 
What kinds of assistance can the Manufacturing Extension 
Partnership provide to small businesses going on-line? Also, 
what are some specific examples of how small manufacturers 
could or would do business transactions over the internet? 
Could you comment in that regard?
    Mr. Braddock. Sure. I, unlike many small manufacturers, I 
was able to afford to hire a private consultant to help me get 
an e-mail address and they're working on a web page. And I 
assume that others who are not aware of the need that I am, 
because I went to a conference in Orlando earlier this year 
that said, if you don't have dot com after your name, you're 
not in business.
    The MEP, I think, can provide technical assistance for 
people who, like myself and others, in order to help us 
determine first of all, not only how to get on the Internet, 
but how to use it once you get there, how it can benefit your 
business. As you may know, you can get on the Internet, but you 
can waste a lot of time there, or you can take care of a lot of 
business there.
    I think they can help us learn how to train our work force, 
our people, how to use other private sector consultants, if 
they're out there, and how to just be able to make money in the 
e-commerce world. Because obviously, there's a lot of money to 
be made over the Internet. And likewise, there's a lot of money 
to be lost if you don't know what you're doing.
    Mr. Barcia. Thank you.
    Chairwoman Morella. Did you want to comment on that, Mr. 
Jasinowski?
    Mr. Jasinowski. Well, I think that the one thing I would 
add to it is that, I raised at the conference yesterday the 
need for a Federal web page that would provide information on 
e-commerce successes to the manufacturing community generally. 
And Elliott Maxwell, who was there from the Commerce 
Department, indicated they were working on that. I would just 
say that this Committee could push the notion of a central 
place for e-commerce in terms of not policy, but how to succeed 
in your own business. Between the Department of Commerce and 
the Extension Program and NIST, I'm sure they can get it on-
line soon.
    Chairwoman Morella. Very good idea.
    I'm pleased now to recognize Mr. Baird from Washington 
State. I don't know whether Manufacturing Extension Center is 
near you or not.
    Mr. Baird. I confess I don't, but I'm intrigued by the 
program, and that's what I wanted to ask about. Thanks, Madam 
Chair.
    This sounds like a pretty good deal. It sounds like a 
Government program that actually works and we're always happy 
to hear that we do some good things around here. We hear enough 
of the negative.
    I'm interested, Mr. Jasinowski, does your organization have 
any sense, or could you estimate maybe the cost benefit ratio 
that we get out of this, in terms of from your feedback you may 
have, or Mr. Kammer?
    Mr. Jasinowski. Well, I think Mr. Kammer can do better than 
I. I have to say that historically, we have not been as close a 
partner of the Extension Program as maybe we should have been, 
and in some cases, the Extension Program may not have in all 
cases been quite as strong as it could have been.
    I think in the last several years there has been a greater 
awareness of the potential for payoff. I was just saying to Mr. 
Kammer that I wanted to send out a letter which had a list of 
specific examples, like Mr. Braddock and Mr. Churchill was 
mentioning, in one paragraph, so that more small manufacturers 
could see specific examples of how things work.
    So I think it's good to calculate cost benefit ratios. But 
I think we're at a point where we're trying to make the 
marriage more solid than take credit for having lived together 
for 40 years.
    Mr. Baird. Good analogy. Mr. Kammer, have you a comment on 
that?
    Mr. Kammer. Yes, sir. We asked the Census Bureau to survey 
some of the people that we've worked with. We've worked with 
about 77,000 small firms at this point. And they did a survey 
that was 4,400, which we think is enough to draw conclusions 
from.
    And for those 4,400, for the period of the survey, which 
was one year, 1997, the companies reported increased sales of 
$236 million. They also said that they created and retained 
about 6,700 jobs.
    I'm almost brave enough to multiply that by 20, because it 
was about 5 percent, but not quite. But at least the sign is 
right, the magnitude is significant. The Government cost on an 
annual basis is about $100 million, $105 million ayear. The 
States then put up the same amount, about $105 million. And then fees 
pay the rest of the costs. So it's about 1/3, 1/3, 1/3. And the ratios 
seem very good.
    Mr. Baird. What sorts of outreach do you do, Mr. Kammer, 
with small manufacturers?
    Mr. Kammer. We have about 2,000 technology agents that are 
supported by this common fund. And they're located in about 400 
places. We're in all States, including yours. And if I may, I'd 
like to share an information package with you later on.
    Mr. Baird. I was going to ask that, thank you.
    Mr. Kammer. And we visit, we'll call on you directly, we'll 
go to your meetings of the Jaycees, we'll go to your meetings 
of the Chamber of Commerce, you know, the traditional ways that 
people in the United States seem to network and that works very 
well. You know, we're a good country for that kind of thing.
    And we find that this works well. Not everybody's 
interested in working with us or anybody else in the 
Government. But when people are, we're happy to work with them. 
We want to.
    Mr. Baird. Thank you very much.
    I'm going to ask what may seem to be a bit of an off the 
wall question. But we mentioned earlier the issue of standards. 
And I'm continually amazed that our Nation doesn't switch to 
the metric system. And in the issue of international trade, is 
that a significant obstacle for folks?
    Mr. Kammer. The United States is metric in almost all 
respects except for the interface with human beings. Your car 
has metric everything except the odometer, the speedometer and 
tires. I have a set of old English ratchets that I used to play 
around with cars, they won't fit on my car now.
    Mr. Baird. You round the bolts off when you use them.
    Mr. Kammer. That's all you can do with that. But at the 
retail level, we as a society seem pretty conservative about 
making the change.
    Chairwoman Morella. Except we run 5Ks. [Laughter.]
    Mr. Baird. But how about in the manufacturing realm? Is 
that an issue for you? Or either, not just in that, but in the 
work force, having a work force that's savvy on metrics?
    Mr. Churchill. It's not been much of a real barrier to us. 
We often end up with two models of products that are identical 
except one has metric mounting threads and one has English 
mounting threads, depending on where we sell it. And it 
complicates things a little bit in that regard.
    Mr. Jasinowski. I'd have to say generally that 
manufacturers have moved to the metric system for the most 
part, reflecting just what Ray was saying. So you do have a 
schizophrenic world out there in which a lot of it has 
happened. But we don't see it, because it's not happening at 
the consumer level.
    Mr. Baird. We should keep that a secret, and they'll think 
we're plotting. [Laughter.]
    Mr. Braddock. Well, you've heard of bilingual. We're bi-
numeral.
    Mr. Baird. That's very well put.
    Thank you very much, Madam Chair.
    Chairwoman Morella. Thank you, Mr. Baird.
    Now I'm pleased to recognize Mr. Udall.
    Mr. Udall. Thank you, Madam Chair. And I want to welcome 
the panel as well. I thought I would begin by directing a 
question to Mr. Jasinowski, but if others of you would like to 
answer it, I'd appreciate that as well.
    You, I believe, and I did arrive a little bit late, but 
stressed that improved efficiency is mandatory, I think was the 
term you used, in order for a small manufacturer to stay 
competitive. Improved efficiency, in my experience, can reduce 
resource used, waste streams and energy consumption, all areas 
that I'm very interested in. What role do you think the MEP 
program can play in assisting small manufacturers to increase 
and improve their efficiencies?
    Mr. Jasinowski. That's a very good question, Mr. Udall, 
because it came up at the conference, and we had a whole 
working session that focused on sustainable development, which 
was the way the conference labeled the whole effort to try to 
bring efficiency and environmental excellence together. I think 
there was a uniform conclusion among the manufacturers, which 
is important, that the quality movement in this country, which 
has been so profound in affecting manufacturing processes, have 
convinced most manufacturers that it's better to eliminate all 
the waste that you can for efficiency reasons.
    And that, by the way, also helps on the environmental 
grounds, so that our paradigm for production is that small is 
beautiful in manufacturing, or less is more. Most people don't 
know that, because sometimes we're fighting particular 
regulations because we don't agree with them. But that was the 
ethic.
    And then beyond that, they felt that we ought to try to 
increase the information flexibility between the regulator and 
the manufacturer and have more cooperation. And we had a survey 
showing that 70 percent of the small manufacturers got along 
fine with their State environmental agency, and only 7 percent 
felt the same way about EPA. So there's something about the gap 
in communications, which is fairly profound from the 
manufacturers point of view, which would generally tend to 
agree with your paradigm.
    Mr. Udall. So your feeling is the MEP program could help 
bridge that gap in situations?
    Mr. Jasinowski. Yes, I think that I should have said 
explicitly the whole sense was that this was what the MEP could 
help with in terms of improving that communication.
    Mr. Udall. Anybody else on the panel have a comment in that 
particular area?
    Mr. Kammer. Perhaps I could also point to the opportunities 
in better engineering and the supply chain. The supply chain 
exists when one supplier perhaps provides a compressor, another 
supplier puts it in an engine, a third person puts it in an 
automobile, just a kind of a crude example. Most engineers 
estimate that the waste at this point in the supply chain, 
because it's not well engineered, the first guy didn't talk to 
the third guy, he only talked to the second guy, is about 1/3 
of the cost.
    Well, that's a lot. That's a very fertile area. On the 
other hand, it's very hard to work in, because the third guy 
doesn't perhaps even know who the first guy is. And the notion 
of working on supply chains is one that's in very active 
discussion within the MEP and among our customers and among the 
MEP center directors right now.
    Mr. Udall. You may be aware of some of the experimentsin 
industrial ecology that are going on, particularly in Scandinavia. I 
think there's, the Danes have a very interesting industrial situation 
where they recycle lots of material, including the waste energy that's 
used in one production process. And there are some fascinating efforts 
going on here in the same regard.
    Mr. Kammer. That's an area where, actually there's a lot of 
operational waste energy sharing now in Europe. And there's 
hardly any in the United States.
    Mr. Udall. Hopefully we'll have a chance in this Committee 
to encourage that more in this country, through some of the 
mechanisms available to us.
    I want to just, I have another question, but I also want to 
just also remark, it's always good to see Mr. Kammer here. We 
have a NIST facility in my district in Boulder. I continue to 
be just astonished by the work that you do in such areas as 
gauging the amount of electricity in a microchip that you can't 
even see with the human eye, and setting those kinds of 
standards. My hat's off to the people that work there and the 
commitment that they have, and also the great addition to our 
community in Boulder that the facility provides.
    I had heard one criticism of the MEP program, and I think 
Congressman Baird alluded to it, or you mentioned it, there are 
sites in every State, is it's not always accessible to small 
manufacturers. Is that a legitimate concern, and if so, what do 
you do to respond to that?
    Mr. Kammer. There's 385--yes, it's a legitimate concern. 
There's 385,000 manufacturers. We've been in existence ten 
years. We've worked with about 77,000, at that rate in a 
century, we'll have talked to everybody.
    One of the things that we're focused on is trying to find 
ways to increase the scope. We've got 2,000 technology agents 
out there. That's a lot. I'm not sure that the next step is to 
add another 1,000.
    Can we work through the Internet? Can we provide more tools 
such as the Y2K tool that we provided to allow people to self-
diagnosis? We reached 300,000 manufacturers, small and medium 
manufacturers, with that tool, which shows that there are ways 
to increase our scope. And we didn't add any people in order to 
do that. So that's one of the notions.
    I think in addition to that, there's some practical 
limitations right now. We're perhaps a few centers short of 
where we should be, just on geography. We'd like to be no more 
than two hours drive time from anybody that has an issue. We 
don't think people get in the car and drive much more than two 
hours, either our agents or people who perhaps have a problem. 
And there's a few areas of the country where I couldn't 
honestly say that we're two hours drive time away.
    Mr. Udall. Thank you. Thank you, Madam Chair.
    Chairwoman Morella. Thank you, Mr. Udall. You're always 
true to your heritage, environmentally and in many ways, in the 
home and the area that you represent. And I'm pleased also to 
represent a NIST location in Gaithersburg, Maryland.
    I was curious, also, and you pretty much answered it, with 
regard to whether or not there are complaints of people not 
being close enough, and you talked about sending out the 
experts, and actually wanting to do more, and having that 
possibility there. I guess I wanted to pick up on the training 
programs that you may have. You know, remember we passed the 
H1B Visa program. And already, it was utilized by the end of 
May, at the numbers that we had increased of international 
people who could give us expertise.
    Now, this is two questions. First of all, do you find in 
your work, and just particularly small manufacturers, and I 
know you would, Mr. Jasinowski, representing all of them, do 
you find that there is a need for another piece of legislation 
that would increase that, the number that we allow into the 
United States for a period of years? And in addition to 
responding to that, do you have programs where you work with 
the community, with the colleges, and you know, Mr. Churchill, 
do you work with our school system in some way on, do you 
partner in any way with the community college that you have?
    I wonder whether or not Mr. Braddock, you utilize our 
educational network for it. And also, attached to that is the 
idea of, do you ever talk to counselors in high school about 
manufacturing jobs? You know, I think, Mr. Kammer, I think NIST 
gives an award to some of these high school kids who are 
involved in manufacturing.
    I remember one year contacting one of them, he said, you're 
like the first one who even gave any recognition other than a 
little blurb in the newspaper for this. And I just think that 
we just don't let young people know that there are these jobs 
available.
    So I guess I'm talking about training personnel, the 
further need to go outside the United States for experts, 
whether temporarily or long into the future. Whoever wants to 
start off.
    Mr. Braddock. I mention in my testimony that I became aware 
of the Manufacturing Technology Center through Saginaw Valley 
State University, the extension of the MEP in Saginaw. 
Likewise, I've been very active in the community, I encourage 
children to come through my plant on tours, I've spent a lot of 
time in the metal schools and the high schools, local high 
schools. Matter of fact, I'm a candidate for local school 
board.
    And I know that we need to educate our children on 
manufacturing and manufacturing jobs, and to expose them at an 
early age of what manufacturing is all about. So that's been on 
my agenda since day one for the last 10 years. And it does make 
a difference. It makes an impact for kids. A lot of kids, even 
if their parents work in a plant, don't know what the inside of 
a plant looks like. So they've had an opportunity themselves to 
come in and take a look at it.
    Chairwoman Morella. It just occurred to me, you need to 
educate parents, too. Many of us think Harvard, Yale, you know, 
we just don't want anything that deals with manufacturing. Have 
you found that to be the case, too?
    Mr. Braddock. Oh, definitely. I mentioned earlier that many 
parents expect their children to graduate from high school and 
go on to a four year college and graduate, be doctors, lawyers 
and whatever. But the trade schools offer just as much 
opportunity for children to become electricians and skilled 
trades people that we need in manufacturing.
    I will mention that one of the ongoing concerns right now, 
for small manufacturers, is the fact that there's not just a 
shortage at our level, but also at the large manufacturing 
level. What typically happens is they use us as a feeder 
program, and they take our skilled trades people and advance 
them up, which leaves us having to be a training ground for the 
larger manufacturers.
    So there's all the much more need for us to have a feeder 
system and our best feeder system is through the highschools, 
the trade skills, and to identify early who these kids are, get them in 
apprenticeship programs so that there is an abundance, if not an 
abundance, at least an adequate supply of people that we need in order 
to keep our business running.
    Chairwoman Morella. Mr. Churchill, I'd love to hear from 
you.
    Mr. Churchill. Yes, we do have difficulty at times finding 
qualified people to join our organization. Particularly in the 
more experienced and more technical qualifications, not 
necessarily people directly out of a school situation.
    We have worked with or participated in job fair programs at 
Montgomery College, the local community college there. I 
believe we've had some success there with the entry level type 
technicians and some assembler applications there. And we've 
also worked a little bit with Maryland University on some co-op 
type programs to help bring in some people.
    The type of technology we employ is a little unusual for 
this area, I believe. I believe that's why we're having 
difficulty finding qualified applicants. And you can get a lot 
of computer people and military type applicants here. We're 
more into analog and more hand assembly work here. It is a 
difficulty we have.
    Chairwoman Morella. Mr. Jasinowski, I know, since you do 
large and small, maybe you want to address the issue.
    Mr. Jasinowski. Well, I did want to, from a small point of 
view, because I think that if anything, Mr. Churchill 
understates a little bit the severity of the problem. The 
survey we had showed 83 percent have a problem finding skilled 
workers. And at the conference, people just were talking and 
talking and talking about how impossible it is, that they're 
giving bonuses, that they're going out and dragging them in 
from the street in order to get it.
    So I think it's a severe skill shortage right now for small 
manufacturers. And they're scared to death, because they're 
afraid the large guys are going to take their people anyway.
    So I think that we must have a renewal of the H1B and we 
must do better on the education front, because our labor force 
is slowing down, and we still have 30 or 40 percent of the 
people who apply for manufacturing jobs can't meet the tests of 
basic mathematics and critical thinking. So I think it's a 
severe problem.
    I think at the same time manufacturers have got to get into 
the schools and help solve the problem themselves better. And I 
was just thinking that last year, we gave an award to members 
of Congress for what we called manufacturing legislative 
excellence, which means you voted our way. And we went in your 
district and we gave them out.
    But I as thinking maybe we ought to give an award for 
cooperation in the education system. And bring the schools in, 
do the plant tours and somehow involve members of Congress in 
that. We've got to somehow make this more politically 
profitable to everybody involved.
    Chairwoman Morella. It's a great idea. I like it.
    Any comments you want to add, Mr. Kammer?
    Mr. Kammer. I think several. I don't think our society for 
the most part realizes that manufacturing jobs pay 12 percent 
more than service jobs. And if you were making a choice and you 
could have a lifetime 12 percent pay raise, I think I know what 
most people would choose. But they're not knowledgeable and, 
therefore, they're not motivated.
    About 20 years ago, the common wisdom was that 5 percent 
unemployment was the irreducible minimum on employment rate, 
that 5 percent was sort of the component of our society that 
wasn't educable, or wasn't motivated. We're at 4.6 percent I 
think this month on unemployment, so we've sort of broken that 
barrier. But no wonder there's a lot of pressure. There's so 
many, there's a lot of jobs chasing relatively few people.
    I personally think one of the big issues is increasing the 
skills of our population, so that they can do the more 
sophisticated jobs, so that they can partake of higher paying 
jobs. The Baldridge award just this last year, with the 
permission of Congress and this Committee, added education as a 
new category. I have some optimism that that will ultimately 
have the effect on our K-12 as well as our colleges, but most 
importantly, K-12, that we've had in manufacturing. If that 
were to happen, it would be a wonderful boon to society. But we 
will see, we've just started.
    Chairwoman Morella. I guess the bottom line continues to be 
education, education, education, basic skills, letting people 
know what the opportunities are, doing the mentoring, getting 
out there, working in partnerships. I will now recognize Mr. 
Gutknecht has joined us, and I want to now recognize Mr. Barcia 
for a second round of questioning.
    Mr. Barcia. Well, I appreciate the testimony we just 
received, also, because I want to highlight and thank you, 
Chairwoman Morella, for agreeing last year to graciously hold a 
public hearing in my district in Bay County, on the campus of 
Delta Community College, Delta College.
    And Mr. Braddock, I'm not sure if you've interfaced with 
college officials, but we kind of during that public hearing 
highlighted the success of the advanced technology education 
component of the National Science Foundation, in which Delta 
College administrators and faculty have designed specific 
curriculum to impart the skills, training and education 
necessary for our two-year community college students to go 
directly into the work force.
    We had three major manufacturing companies, Dow Corning, 
Dow Chemical and General Motors, who testified as to the 
success of that interaction between college administrators and 
faculty, designing the specific curriculum and classes that are 
needed with the latest state of the art equipment in the 
plants, so that when that student graduates, after two years of 
higher education, they go directly into the work force, and in 
some cases making between $50,000 and $60,000 a year to start.
    And I think what we might want to do in Congress is see how 
we can reinforce the financial resources of NSF with regard to 
the ATE component. And then also, I'm not sure, Mr. Braddock, 
if you've had any contact with Delta College up there in terms 
of helping train some of your future employees, or retrain 
existing workers.
    Mr. Braddock. Being a graduate of Delta College, in 1991 
the first 15 people that I hired went through an extensive 
training program at Delta. They spent four hours in the 
classroom and four hours in the work place as part of the 
startup of my business that long ago. So I've had a long term 
relationship with Delta.
    But let me also say this, is that we have a vastly 
underserved population of people in our 
communities,particularly in the minority community, who are 
underemployed, who need training in order to access even entry level 
positions in most manufacturing facilities.
    And even though manufacturing can range anywhere from 
making furniture to making rockets, it's not all rocket 
science. Once people have gotten in the door, proven themselves 
to be good, get to work on time, proven that they have some 
good work ethic, you can typically train the average person to 
do whatever it is they need to do, as long as they're willing 
to show up every day and be on time and then pay attention to 
what it is they're supposed to be doing.
    So I think it goes back to the whole point of education 
being the key, and letting people know that if they do the 
right things, they'll have an opportunity to get a better and 
better job as time goes on.
    Mr. Barcia. I'm not sure if anyone else wanted to comment, 
but again, I want to thank Chairwoman Morella. I think we had a 
very successful public hearing on the campus up there last 
spring, and a lot of these points that Mr. Braddock just made 
were demonstrated in terms of the testimony that was provided 
to our Subcommittee. So thanks.
    Chairwoman Morella. Demonstrates the kinds of things that 
can be done throughout the country with partnerships between 
the educational institutions and the private sector to train 
young people.
    I'm delighted now to recognize Mr. Gutknecht from the great 
State of Minnesota.
    Mr. Gutknecht. Well, thank you, Madam Chair. And I 
apologize for not being here. We had another hearing going on 
over in the Budget Committee on the issue of education. And we 
were privileged to have Governor Jeb Bush from the State of 
Florida testifying, former Governor Voinovich from the State of 
Ohio testifying.
    And it was interesting, when you have people from Ohio, 
Florida and Michigan involved in the debate, sooner or later 
there was some discussion of football. And it was interesting, 
and I was privileged in a previous life, I worked for the 
former captain of the Green Bay Packers. It's a long way to go 
to make a point here, but one of the things that struck me and 
in some of the things that you've said, and I will take more 
time to review some of the testimony about education, training 
and so forth.
    The one thing about Vince Lombardi, he had a relatively 
small playbook. But he believed in doing a limited number of 
things but doing them extremely well. And it seems to me, and 
this came out sort of in the testimony about education as well, 
sometimes we've gotten so sophisticated, we've tried to do so 
many things in education, that we've forgotten some of those 
basic fundamentals.
    I think you've alluded to this, that if kids have basic 
skills, if they can read, if they can write, if they can 
perform arithmetic, if they've got good English language 
skills, it strikes me that even small manufacturers, and I do 
an awful lot of plant tours in my district, and I'll tell you, 
I encourage all members to do this, because it's amazing to see 
what's going on in American manufacturing.
    You raised the issue of 4 percent unemployment rate. In our 
district in Minnesota, it is about 2 percent. Literally, we are 
beyond full employment. I mean, there are people working in my 
district who really don't want to work. They're literally going 
out on the streets, you know, and I literally had talked to 
people at church, and they say, well, yeah, I really didn't 
want to go back to work, but they kept calling me, so I'm 
working 28 hours a week, or I'm working 30 hours a week or I'm 
doing something else.
    But anyway, I really do think at some point we do have to 
get back to some of those basics. And I think sometimes with 
education, we miss the real story.
    In terms of more sophisticated training, I will tell you, 
every business that I talk to, they say, if you give me 
somebody who will show up on time, who has a good work ethic, 
who can read, write, perform arithmetic and has, in fact, they 
don't even have to have great English language skills, I mean, 
if they have just basic English language skills, we will train 
them. And within a relatively short period of time, they will 
be making a good living in manufacturing.
    And I don't so much have a question, and I see for the 
record the heads were basically nodding on my last comment, 
they don't have to respond to that. But I do think it's 
important for hearings like this, and we need to be talking 
about how important manufacturing is to our long-term economy. 
I think there is a school of thought, and we need to do all we 
can to dissuade people from this way of thinking, that 
manufacturing is not important to our long-term economic 
future.
    The service industry is wonderful. Even high technology is 
great. But I think at the end of the day, we have to recognize 
that manufacturing has to be part of our whole economic mix.
    And so I'm delighted that you're here. I apologize, I 
missed most of the testimony and as a result, can't even ask a 
particularly good question, because it may already have been 
asked.
    But again, I want to thank Chairwoman Morella for putting 
this hearing together, and I want to thank all of you for 
coming. And don't think just because we didn't have a huge 
attendance that members don't care about this. It's just that 
they have a wicked, sort of a wicked habit around here of 
piling meetings on top of meetings.
    But thank you very much for coming.
    Chairwoman Morella. Thank you, Mr. Gutknecht. Maybe you 
didn't ask questions, but you made good statements. I couldn't 
agree more.
    I just want to ask one kind of final question. Mr. 
Churchill and Mr. Braddock, where would you be today if you 
didn't have the Manufacturing Extension Program? I notice Mr. 
Davis, who's a former member of Congress, who's sitting over 
there, too. Nice to see you.
    Mr. Churchill. That is a little hard to answer precisely. 
But the Manufacturing Extension Program has helped us greatly. 
As I mentioned earlier, one of the problems we had to solve 
represented about 50 percent of our sales at that time. And the 
effect of even losing that market, the reputation would have 
affected other markets we were in as well.
    So I would say they helped greatly in keeping us where we 
are.
    Chairwoman Morella. Would you have gone to an independent 
contractor, or a consultant?
    Mr. Churchill. We attempted to go to independent 
contractors prior to contacting the Extension Program Service. 
They are difficult to find, and also the speed at which we 
needed to find them was critical, too. And the ease of being 
able to call up the Extension Service, once we found out about 
their services, was greatly appreciated. We could call them up 
and then in a matter of days, Mr. Vinicor would come back with 
some help.
    Chairwoman Morella. Mr. Braddock, do you echo that?
    Mr. Braddock. Yes. It's a pretty easy question for me to 
answer, because as Congressman Baird was asking a question on 
how we quantify, how would you do a cost analysis of the 
benefit, I was sitting here thinking that my sales are more 
than doubled since partnering with the Michigan Manufacturing 
Technology Center.
    And when I think about the services they provided me, if I 
had to go out there and get those in the private sector, and I 
have done some private sector consulting, I'd probably have to 
pay twice as much and get half as much benefit from it, 
particularly when you, my experience has been with private 
consultants is you sit there and you tell them everything you 
know about your business and what it is you do, and then they 
give you a report that tells you basically what you told them. 
No real ideas come out of it.
    And what I've found with the Michigan Manufacturing 
Technology Center is that they do research and they contact 
their other business contacts and they come back with ideas 
that you can choose, pick and choose from and actually make 
good, sound business decisions on. And I'm fortunate to be in a 
position where I can make those decisions in my business very 
quickly, based on the information that I get from various 
sources. And that's my biggest challenge, is to make the right 
decisions.
    But the better information I have, the better resources I 
have, the better decisions I can make.
    Chairwoman Morella. Excellent. Good. You've offered some 
great commentary and responses to questions, Mr. Braddock. 
We're pleased to have you here, I'm very proud of you. And Mr. 
Churchill, I look forward to also going through your plant, 
Wilcoxon, at some point.
    Mr. Churchill. Oh, yes, we'll invite you.
    Chairwoman Morella. Mr. Jasinowski, please know, I read 
your testimony, I mean, I know what you said about the estate 
tax. [Laughter.]
    And the other taxation, I guess R&D would be the, to make 
permanent, something I agree with, to make permanent the tax 
credit. And I thank you for your leadership in the entire area. 
NAM has made a big difference, including in helping to crack 
that Y2K bill that passed. So it's a pleasure to have you here.
    Mr. Kammer, we keep giving you more and more responsibility 
and you keep being able to, with your very loyal staff, to be 
able to fulfill it. And this is another area where you've done 
such a great job, with the MEP program. And I thank you all. 
And if we have questions from the Subcommittee, we'll be happy 
to get them to you, if you would be willing to entertain them.
    And I want to thank Terry Fish for being such a great 
staffer, helping with this program and also Mike Quear, on the 
minority side, for the work that he has done.
    And so I thank all of you. Our Subcommittee meeting is 
adjourned.
    [Whereupon, at 2:35 p.m., the Subcommittee was adjourned, 
to reconvene at the call of the Chair.]

</pre></body></html>
